DEFAULT: I will be in default if 1) I do not pay on time or in
the proper amount; 2) I fail to abide by the terms of this
Agreement or any other agreement I have with you; 3) I
make any false or misleading statements in any credit
application or update of information; 4) I die, become
insolvent or am the subject of bankruptcy or receivership
proceedings; 5) something happens which you believe
substantially reduces my ability to repay.
ACCELERATION AND COLLECTION COSTS: If I am in
default, you may demand immediate payment of the unpaid
balance, Finance Charges, late charges, annual fees,
overlimit fees and collection costs. I understand that I may
be subject to Finance Charges (at the applicable Periodic
Rate), late charges, annual fees, overlimit fees and collection
costs under the terms disclosed in this Agreement, until I
repay my entire balance. I also agree to pay your reasonable
attorney’s fees, and court costs.
RESPONSIBILITY: I agree to repay you according to the
terms of this Agreement for all Purchases, Cash Advances,
Finance Charges, late charges, annual fees and overlimit
fees, if any, arising from the use of the account by me or any
other person I permit to use my account, even if that person
exceeds my permission. I understand that once I authorize
any person to use this account, this authorization will be in
force, until I revoke this authorization in writing to you. Any
person using the account is jointly and severally responsible
with me.
UNAUTHORIZED USE: I may be liable for the unauthorized
use of my card. I will not be liable for unauthorized use that
occurs after I notify you at 1 (877) 875-8092, or in writing at
Cardholder Services P.O. Box 29100, Glendale, CA
91209-9100, of the loss, theft or possible unauthorized use.
If I notify you of the lost or stolen card, I will not be liable for
any losses. This liability exclusion will apply provided I am
not grossly negligent or fraudulent in handling of my card;
otherwise my liability will not exceed $50.00.
TERMINATION: I can cancel my Account at any time by
returning to you my Card, along with a letter requesting that
you cancel my Account. You may cancel this Agreement at
any time. However, my obligation under this Agreement and
any charges made under it prior to cancellation will continue
to apply until I have paid you all the money I owe on the
Account according to the terms of this Agreement.
TRANSACTION SLIPS: My statement will identify the merchant,
electronic terminal or financial institution at which transactions
were made, but sales, Cash Advances, credit or other slips
cannot be returned with the statement. I will retain the copy of
such slips furnished at the time of the transaction in order to
verify my monthly statement. You may make a reasonable
charge for any photostatted copies of slips I request.
PLAN MERCHANT DISPUTES: You are not responsible for
the refusal of any plan merchant or financial institution to
honor my card. You are subject to claims and defenses
(other than tort claims) arising out of goods or services I
purchase with the card only if I have made a good faith
attempt but have been unable to obtain satisfaction from the
plan merchant, and (a) my purchase was made in response
to an advertisement you sent or participated in sending me;
or (b) my purchase cost more than $50.00 and was made
from a plan merchant in my state or within 100 miles of my
current mailing address. Any other dispute I must resolve
directly with the plan merchant.

FOREIGN TRANSACTIONS (ISA fee): When I use my card
for a foreign transaction, the transaction amount may be
converted into U.S. dollars by applying an exchange rate
selected by VISA from among the range of rates available in
wholesale currency markets or the government-mandated
rate on the date the transaction is processed. The rate
chosen may vary from the rate VISA itself receives.
A fee equal to 1% of the transaction amount is added to each
international transaction. For example if your international
transaction resulted in US $100, the fee would be $1.00.
RETURNS AND ADJUSTMENTS: Merchants and others
who honor the Card may give credit for returns or adjustments, and they will do so by sending you a credit slip which
you will post to my account. If my credits and payments
exceed what I owe you, you will hold and apply this credit
balance against future Purchases and Cash Advances, or if
it is $1.00 or more, refund it on my written request or
automatically after six (6) months.
OWNERSHIP OF CARDS: Any card or other device, which
you supply to me is non-transferable and is the property of
you. You may repossess any and all cards at any time at
your sole discretion without demand or notice. All cards must
be returned to you, or to any person whom you authorize to
act as your agent, or any person who is authorized to honor
the cards according to instructions.
TERMINATION OF CARD PRIVILEGES: If my card
privileges are terminated, I must immediately surrender all of
my Cards. Termination of Card privileges does not affect any
rights and obligations for transactions made with the Card
before the privileges were terminated.
SURRENDER OF CARD(S): The Card(s) remains your
property and, if you request, I must surrender to you all cards
you have issued on my account.
LOST OR STOLEN CARDS: To report lost or stolen card(s),
the Account Number, PIN or any combination of the three, I
will call you at 1 (877) 875-8092.
PAYMENTS MARKED “PAID IN FULL”: You may accept
checks, money orders, or other types of payment marked
“payment in full” or use other language to indicate full
satisfaction of any indebtedness, without being bound by
such language or waiving any right under this Agreement.
You shall accept full satisfaction of indebtedness only in a
written agreement, signed by your authorized representative.
DELAY IN ENFORCEMENT: You can delay in enforcing any
of your rights under this Agreement without losing them.
GOVERNING LAW: I understand and agree that this
Agreement is made in California and shall be governed by
the laws of the State of California to the extent that California
Law is not inconsistent with controlling Federal law. I also
understand that California’s choice of law rules shall not be
applied if they would result in the application of non
California law.
FORCE MAJURE: You are not liable for failing to act or delay
in acting if such failure or delay is caused by legal constraint,
interruption of transmission or communication facilities,
equipment failure, war, emergency conditions, terrorist action,
Act of God or other circumstances beyond your control.
CHANGE OF NAME, ADDRESS and EMPLOYMENT STATUS:
I understand that I must report to you any change in my
name, address or employment status within sixty (60) days
of such change.

CHANGE OF TERMS: This Agreement is the contract which
applies to all transactions on my account even though the
sales, Cash Advances, credit or other slips I sign or receive
may contain different terms. I understand that you may
amend, modify, add to, or delete from this Agreement any of
its terms and conditions, including the method of application
and the amount of Finance Charge, effective as to any
unpaid balance outstanding and any subsequent advance by
mailing a notice of the change to me at my last known
address. I also understand that any such notice will be
mailed at least Forty Five (45) days prior to the effective date
of the change as required by Federal or other law. Notice of
change in terms is required, but may be sent as late as the
effective date of the change where the change has been
agreed to, in writing by me.
STATEMENTS: With certain exceptions, CCU provides
account holders with statements listing the account
transactions. I agree to examine my statements as soon as I
receive them.
I assume full responsibility for monitoring and reviewing the
activity of my account and the work of my employees,
agents, and accountants.
I agree to notify you immediately if I think there is an error or
an unauthorized transaction shown on my statement. Unless
I notify us promptly, you will assume the statement is correct.
If you send me a statement or item which contains or
discloses an erroneous debit, unauthorized or missing
signature or an alteration, I must notify you promptly of that
fact, but no later than 60 days after you mail or deliver the
item or statement to me. For these purposes, statements will
be deemed to have been mailed on the first business day
following the statement date. I further agree that if I fail to
report any erroneous debit, unauthorized or missing
signatures or an alteration within this time frame I cannot
assert a claim against CCU on any items or transactions in
that statement, and thereafter by the same wrongdoer, and
as between me and CCU the loss will belong entirely to me.
This 60-day limitation is without regard to whether you did or
did not use ordinary care.
My statements and notices will be mailed to the last address
you have on file for the account. If my signature card
indicates that statements and notices are to be held by you,
you may mail them to the last address on file for the account
if they are not picked up within 90 days. If two consecutive
statements and/or notices are returned to CCU by the Postal
Service for any reason, you may hold subsequent statements and notices of every kind until we receive forwarding
information from me and you may destroy such statements
and notices if I do not claim them within one (1) year from
the date of mailing.
If I do not receive my scheduled statement, it is my obligation
to notify you of that fact.
RELEASING ACCOUNT INFORMATION: I authorize you to
release information regarding the current status and history
of my account to others. You may release information:
(1) where it is necessary or helpful to complete a transaction;
(2) to verify the existence and condition of your account for a
third party, such as a merchant or another financial institution;
(3) to comply with the law or a court order; (4) when an
inquiry is made regarding whether my account has sufficient
funds to cover a check drawn on my account, (5) with my
authorization; and (6) for other legitimate business purposes.

8

9

10

CCU, from time to time, enters into agreements with third
parties to provide bank related services for the CCU. The
services provided by the third parties may include check-processing services, data processing services or other
bank-related services. I authorize you to release information
regarding my account to such third-party services providers
in connection with the service providers providing bank
related services for CCU.
CREDIT INFORMATION: I authorize you to investigate my
credit standing when opening, renewing or reviewing my
account, and I authorize you to disclose information
regarding my account to credit bureaus and other creditors
who inquire about my credit standing to the extent authorized
by law. If I dispute credit information you are reporting about
me, I may notify you at Attn: Credit Department, P.O. Box
29100, Glendale, CA 91209-9100 or call you at 1 (877)
875-8092.
NEGATIVE CREDIT REPORTING: CCU may report
information about my account to credit bureaus. Late
payments, missed payments, or other defaults on my
account may be reflected in my credit report.
NOTICE: See the statement below for important
information regarding right to dispute billing errors.
COPY RECEIVED: By activating and/or using my Card or
allowing an authorized user to use my Card, I acknowledge
receipt of a copy of this Agreement and Federal Truth-In-Lending Disclosure Statement and agree to and accept its terms.
YOUR BILLING RIGHTS
(Keep this Notice for future use)
This notice contains important information about your rights
and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement:
If you think there is an error on your statement, write us at:
California Credit Union
PO Box 182477
Columbus, OH 43272-4935
In your letter, give us the following information:
• Account Information: Your Name and account number
• Dollar Amount: The dollar amount of the suspected error.
• Description of the problem: If you think there is an error
on your bill, describe what you believe is wrong and why
you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement
• At least 3 business days before an automatic payment is
scheduled, if you want to stop payment on the amount
you think is wrong.
You must notify us of any potential errors in writing. You may call
us, but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. W
 ithin 30 days of receiving your letter we must tell you
that we received your letter. We will also tell you if we
have already corrected the error.
2. W
 ithin 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the
bill is correct.
11

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report
you as delinquent on that amount.
• The charge in question may remain on your statement,
and we may continue to charge you interest on that
amount.
• While you do not have to pay the amount in question,
you are responsible for the remainder of
your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the
amount in question or any interest or other fees related
to that amount
• If we do not believe there was a mistake: You will have
to pay the amount in question, along with applicable
interest and fees We will send you a statement of the
amount you owe and the date payment is due We may
then report you as delinquent if you do not pay the
amount we think you owe
If you receive our explanation but still believe your bill is
wrong, you must write to us within 10 days telling us that you
still refuse to pay If you do so, we cannot report you as
delinquent without also reporting that you are questioning
your bill We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when the matter has been settled between us
If we do not follow all of the rules above, you do not have to
pay the first $50 of the amount you question even if your bill
is correct
Your Rights If You Are Dissatisfied With Your Credit
Card Purchases
If you are dissatisfied with the goods or services that you
have purchased with your credit card, and you have tried in
good faith to correct the problem with the merchant you may
have the right not to pay the remaining amount due on the
purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home
state or within 100 miles of your current mailing
address, and the purchase price must have been
more than $50. (Note: Neither of these are necessary
if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you
the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an
ATM or with a check that accesses your credit card
account do not qualify.
3. You must not yet have fully paid for the purchase.

FEB. 2016

Premium Visa
Elite Rewards Visa
and/or School Rewards Visa
AGREEMENT AND FEDERAL
TRUTH-IN-LENDING
DISCLOSURE STATEMENT

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at:
California Credit Union
PO Box 182477
Columbus, OH 43272-4935
While we investigate, the same rules apply to the disputed
amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you owe
the amount and you do not pay, we may report you as
delinquent.
12

1

CARD MEMBER AGREEMENT
In this Agreement and Disclosure Statement the words “I”,
“me”, and “my” mean each and all of those who apply for or
use California Credit Union Premium Visa, Elite Rewards
Visa, and/or School Rewards Visa. “You”, “your”, and “yours”
mean California Credit Union (CCU). “Card” means the
Premium Visa, Elite Rewards Visa, and/or School Rewards
Visa issued to me and any duplicates you may issue.
“Account” means my Premium Visa, Elite Rewards Visa,
and/or School Rewards Visa with you.
By requesting and receiving, signing or permitting others to
use a Premium Visa, Elite Rewards Visa, and/or School
Rewards Visa issued to me by California Credit Union, I
agree to the following terms and conditions and any
amendments thereto:
MEMBERSHIP IN THE CREDIT UNION: I must qualify for
and become a member of CCU. You reserve the right to
close my account(s) if my membership in CCU terminates. I
agree that at your option you may suspend my rights to
member services if I violate the terms of this agreement or
any other agreement with me, or if I cause a loss to CCU.
Notice: This Document Contains Provisions For a Variable
Annual Percentage Rate.
The Monthly Periodic Rate is determined by dividing The
Annual Percentage Rate (determined as set forth below) by
12 and will change when the Annual Percentage Rate
changes. The Monthly Periodic Finance Charge for each
billing cycle will be the sum of the Monthly Periodic Finance
Charge on my “Purchase” Balance and the Monthly Periodic
Finance Charge on my “Cash Advance” Balance and cash
advance transaction fees (see explanation below) for the
billing cycle. The Monthly Periodic Finance Charge on my
Purchases Balance is calculated by multiplying the Average
Daily Balance for Purchases (see explanation below) on my
account for the billing cycle by the applicable Monthly
Periodic Rate. The Monthly Periodic Finance Charge on my
Cash Advances Balance is calculated by multiplying the
Average Daily Balance for Cash Advances (see explanation
below) on my account for the billing cycle by the applicable
Monthly Periodic Rate.
HOW YOU DETERMINE CHANGES IN MY ANNUAL
PERCENTAGE RATE: The Annual Percentage Rate may
increase or decrease on the first day of each monthly billing
cycle (the “Adjustment Date”) during the term of this
Agreement. Any such change will be based on an increase
or decrease of the most recent “Prime Rate” as published by
the Wall Street Journal and available as of the first Tuesday
of the calendar month prior to the Adjustment Date (herein
“Index”). If more than one rate is listed under the heading
“Prime Rate” in the Wall Street Journal, you shall use the
lowest rate for purposes of calculating the Index. In the event
that the Wall Street Journal ceases publishing the “Prime
Rate”, changes in the Annual Percentage Rate will be related
to a comparable Index.

For example, the Index in effect on the first Tuesday in
January shall be used to calculate the Annual Percentage
Rate effective as of the first day of the next billing cycle in
February of the same year. The Index in effect on the first
Tuesday in February shall be used to calculate the Annual
Percentage Rate effective as of the first day of the next
billing cycle in March of the same year, and so forth. The
maximum Annual Percentage Rate during the term of this
Agreement may not exceed the maximum Annual Percentage
Rate permitted for California state chartered credit unions at
the time of each Annual Percentage Rate change. Decreases
in the Annual Percentage Rate in accordance with the terms
of this Agreement are mandatory. Increases in the Annual
Percentage Rate in accordance with the terms of this
Agreement are at your discretion. If the Annual Percentage
Rate and corresponding Monthly Periodic Rate increases or
decreases the Finance Charge will increase or decrease and
the number of payments required to repay the unpaid
balance may increase or decrease. Each change in the
Annual Percentage Rate and the corresponding Monthly
Periodic Rate will apply to any unpaid balance on the
effective date of such change as well as to future purchases
and advances.
CONDITIONS UNDER WHICH A FINANCE CHARGE WILL
BE IMPOSED: The conditions under which a Finance
Charge will be imposed depend upon whether the
transaction is a Cash Advance or a Purchase.
FINANCE CHARGE ON CASH ADVANCES: A Finance
Charge will be imposed on the Cash Advances outstanding
in my Account whenever the statement of the Billing Cycle
being concluded (the “current statement”) reflects Cash
Advances outstanding at any time during the Billing Cycle.
You will charge a Finance Charge on my Cash Advances
from the date they are posted to my Account.
BALANCE TRANSFER FEE: You will assess a Balance
Transfer Fee for balance transfers. For each of these
balance transfers, you will add a Finance Charge equal to
2.0% of the balance transfer amount, but not less than $5.
This Finance Charge will be added to the balance transfer
balance on my Account.
The Finance Charge on Balance Transfers consists of i)
Balance Transfer Fees and ii) interest computed at a Monthly
Periodic Rate. The Annual Percentage Rate for all outstanding
indebtedness and new balances relating to Balance Transfers
is the same as the purchase rate for transactions. The
current Monthly Periodic Rate and the Annual Percentage
Rate for Balance Transfers transactions is the same as the
purchase rate for your card. This rate is subject to increase
or decrease monthly in accordance with changes in the
Prime Rate, as set forth in more detail in the paragraph
above on Prime Rate Adjustments. An increase may result in
a higher minimum monthly payment.
CASH ADVANCE TRANSACTION FEE: You will assess a
Cash Advance Transaction Fee for ATM and bank Cash
Advances, and for use of convenience checks and other
credit instruments or devices intended for my use in
obtaining Cash Advances. For each of these Cash Advances,
you will add a Finance Charge equal to 3.0% of the Cash
Advance amount, but not less than $5. This Finance Charge
will be added to the Cash Advance balance on my Account.
The Finance Charge on Cash Advances consists of i) Cash
Advance Transaction Fees and ii) interest computed at a

Monthly Periodic Rate. The Annual Percentage Rate for all
outstanding indebtedness and new balances relating to Cash
Advances is the same as the purchase rate for transactions.
The current Monthly Periodic Rate and the Annual Percentage
Rate for cash advance transactions is the same as the
purchase rate for your card. This rate is subject to increase
or decrease monthly in accordance with changes in the
Prime Rate, as set forth in more detail in the paragraph
above on Prime Rate Adjustments. An increase may result in
a higher minimum monthly payment.
FINANCE CHARGE ON PURCHASES: Whenever any
portion of the amount shown as the Previous Balance in the
current statement remains unpaid after the due date shown
on the previous statement, a Finance Charge will be
imposed on the Purchases reflected in the New Balance on
my current statement.
However, any new Purchases that are reflected for the first
time on my current statement will not be subject to a Finance
Charge during the Billing Cycle reflected in the current
statement if: (a) I have no Previous Balance on my current
statement (b) the payments and credits received by you are
at least equal to the Previous Balance that appears on my
current statement. All other new Purchases will be “Purchases
that are subject to a Finance Charge”.
You will charge a Finance Charge on the “Purchases that are
subject to a Finance Charge” from the date they are posted
to my Account. The minimum Finance Charge, if any,
imposed on Purchases posted to the Account will not be less
than $0.50.
The monthly Periodic Rate and the Annual Percentage Rate
on Purchase Transactions in effect during any billing cycle is
determined by adding a margin to the Prime Rate as set
forth in more detail in the paragraph above on Prime Rate
Adjustments.
DEFAULT RATE: Regardless of any other provision in your
Agreement to the contrary (including any introductory or
promotional rates), you may, when permitted by applicable
law, impose a higher monthly Periodic Rate and corresponding Annual Percentage Rate (a “Default Rate”) to my Account
if I fail to pay the total amount due shown on my monthly
statement by sixty days (60) after the payment due date.
The Default Rate may vary, and is calculated by adding 19.90%
to Wall street Journal prime rate to determine my current
Annual Percentage Rate. The maximum default rate (CAP)
is 23.15%. The Default Rate will take effect on the first day of
the Billing Cycle that follows a Triggering Event (failure to pay
the total amount due by sixty (60) days after the scheduled
due date), and will apply to my outstanding balances in effect
and any new Purchase and Cash Advance transactions. The
Default Rate will remain in effect until I have paid six
consecutive timely monthly payments immediately following
the effective date of the increase (the “Default Rate Period”).
HOW YOU DETERMINE THE AVERAGE DAILY BALANCE
ON WHICH MY FINANCE CHARGE IS COMPUTED: We
calculate the finance charge on your account by applying the
periodic rate to the “average daily balance” of your account
(including current transactions). To get the “average daily
balance” we take the beginning balance of your account
each day, add any new [purchases/advances/loans], and
subtract any payments or credits, [and unpaid finance
charges]. This gives us the daily balance. Then, we add up
all the daily balances for the billing cycle and divide the total

2

3

4

How We Will Calculate Your Balance: We use a
method Called “average daily balance (including new
purchases). See your account agreement for more
details.
Billing Rights: Information on your rights to dispute
transactions and how to exercise those rights is
provided in your account agreement.

by the number of days in the billing cycle. This gives us the
“average daily balance.”
HOW YOU DETERMINE MY TOTAL FINANCE CHARGE:
If payment in full was not received by you for the entire “New
Balance” by the Payment Due Date, then you will calculate
the Finance Charges on my account by applying the Monthly
Periodic Rate to the “Average Daily Balance” on my account
for Purchases and to the “Average Daily Balance” on my
account for Cash Advances. If payment in full for the entire
“New Balance” shown on my statement for the previous
Billing Cycle was received by you by the Payment Due Date,
I will not be subject to the Finance Charges on the “Purchases”
portion (which consists of transactions related to purchases
of goods and services) of my account for that Billing Cycle.
This is known as a “Grace Period”. However, there is no
“Grace Period” for Cash Advances. You will assess Finance
Charges on the Cash Advance portion of my account from
the date such Cash Advances are posted to my account until
the date of payment (even if payment of the entire “New
Balance” is received by you by the Payment Due Date).
Then, you will take the sum of the Monthly Periodic Finance
Charge on my Purchases balance and the Monthly Periodic
Finance Charge on my Cash Advances balance for the
billing cycle. This determines my total Finance Charge for
the billing cycle. Actual Finance Charges will be shown on
my periodic statement.
CASH BACK REWARDS (Applies to Elite Rewards Visa.):
One percent (1%) of purchases (less returns) posted to my
account each year will be rebated. BALANCE TRANSFERS
and CASH ADVANCES are not eligible for this program.
Rewards (rebates) are paid only on current accounts and
awarded each year. Points may accumulate from one year to
the next. Please review your program booklet for information
on redeeming.
CASH BACK REWARDS (Applies to School Rewards
Visa): One percent (1%) of purchases (less returns) posted
to my account each year will be rebated. BALANCE
TRANSFERS and CASH ADVANCES are not eligible for this
program. Rewards (rebates) are paid only on current accounts
and awarded each year. Rewards are redeemed and sent to
the school of my choice once a year at your discretion.
SECURITY INTEREST (APPLIES ONLY TO SECURED
ACCOUNTS): I grant you a security interest in my Share
Savings Account as indicated on the Secured Account
Authorization, and I understand that the interest in my Share
Savings Account is required by you as a condition for
granting me a Secured Account. I agree not to give anyone
other than you an interest in my Share Savings Account. I
agree not to permit any third parties, other than you, to make
withdrawals from my Share Savings Account. I authorize you
to place a hold on the account, and I agree that you may
refuse to allow any withdrawal or payment from the Share
Savings Account, if allowing the withdrawal or payment would
cause the amount remaining in the Share Saving Account to
fall below the credit limit or outstanding balance, whichever is
higher. If I default, you may at any time thereafter and without
advance warning to me apply all or part of my Share Savings
Account balance to the satisfaction of amounts owed on my
Account. If the balance in my Share Savings Account is not
sufficient to repay the amounts owed on my Account, I agree
to immediately pay the remaining balance.
PROMOTIONAL PROGRAMS: From time to time, you may
offer a promotional Periodic Rate on all or a portion of Cash
5

Advance or Purchase balances in my Account (“Promotional
Balances”). If I take advantage of a Promotional Balance
Program, the resulting Promotional Balance will be subject to
the terms of that specific promotional offer and this Agreement. Any promotional Periodic Rate will apply to those
Promotional Balances until the last day specified in the
Promotional Balance offer, the date the Account is closed to
future transactions, or the date the Account becomes subject
to a Default rate as provided in this agreement (the “Termination Date”). Beginning on the first day of a Billing Cycle
following the Termination Date, the Periodic Rate applied to
Promotional Balances will be determined as described above
the Section “How You Determine My Total Finance Charge.”
In each Promotional Balance Program, any terms of the
program not disclosed in this agreement (such as the Annual
Percentage Rate, effective dates and any grace period) will
be detailed in the Promotional Balance offer.
PAYMENT: I promise to repay you at your office all sums
advanced to me or any person I permit to use this account
on the terms and conditions set forth herein. Payments will
continue until I have paid in full the unpaid balance, Finance
Charges and any other fees and charges.
PREPAYMENT OR IRREGULAR PAYMENTS: Though I
need only pay the Minimum Monthly Payment Due, I
understand that I have the right to repay my balance at any
time without penalty. I also understand I will only be charged
Finance Charges to the date I repay my entire balance. I
may make larger payments without penalty and this may
reduce the total amount of Finance Charges that I will repay.
Any partial payment of my balance will not advance my next
payment due date(s). I understand that any payment that (a)
delays or (b) accelerates the repayment of my unpaid
balance will (a) increase or (b) decrease my Periodic
Finance Charges.
MINIMUM MONTHLY PAYMENT: Every month, I must pay at
least the Minimum Monthly Payment due by the Payment
Due Date shown on my statement. I may, of course, pay
more frequently, pay more, or pay the New Balance in full
and I will reduce my periodic Finance Charge by doing so.
The Minimum Monthly Payment will be either (a) 2% of my
New Balance or $10.00, whichever is greater, or (b) my New
Balance, if it is equal to or less than $10.00. In addition, I
must pay any amount shown on my statement as past due
and any late charge. Lastly, at any time my New Balance
exceeds my Credit Limit, I must pay the excess as well as
any Overlimit Charges.
I understand that my Payments are applied in the following
order: a) unpaid Periodic Finance Charges on Promotions,
b) the unpaid Periodic Finance Charge on Purchases, c) the
unpaid Periodic Finance Charge on Cash Advances, d) the
unpaid fees and charges, if any, e) the unpaid balances on
Promotional Rates, f) the unpaid balance of Purchases, and
g) the unpaid balance of Cash Advances.
DEFAULT MINIMUM MONTHLY PAYMENT: Regardless of
any other provision in your Agreement to the contrary
(including minimum monthly payment), you may, when
permitted by applicable law, impose a higher monthly
payment (a “Default Payment”) to my Account if I fail to pay
the total amount due shown on my monthly statement by
thirty days (30) after the payment due date.
The Default Payment will be either (a) 3% of my New
Balance or $10.00, whichever is greater, or (b) my New
6

Balance, if it is equal to or less than $10.00. In addition, I
must pay any amount shown on my statement as past due
and any late charge. Lastly, at any time my New Balance
exceeds my Credit Limit, I must pay the excess as well as
any Overlimit Charges. The Default Payment will remain in
effect until I close my account.
MINIMUM FINANCE CHARGE: I will be charged a minimum
Finance Charge of $0.50 in any month a Finance Charge is
imposed.
LATE CHARGE: If my current Minimum Monthly Payment is
not received by you within five (5) days following my
payment due date, I will be charged a late charge of $7.00.
RETURN CHECK CHARGE: A charge of $18.00 will be
added to my account for each payment I make to you by
check which is returned to you for lack of sufficient funds.
STOP PAYMENT FEE: A charge of $15.00 will be added to
the Purchase balance of my Account if I ask to stop payment
on any credit card check drawn on my Account.
TRANSACTION FEE FOR CASH ADVANCES: I will be
charged a transaction fee on each cash advance I initiate,
whether I receive cash or a check, equal to 3% of the
advance with a minimum fee of $5.00.
TRANSACTION COPY FEE: I may obtain copies of my
transaction slips. I understand that I will be subject to a fee
of $10 for each transaction that I request.
BALANCE TRANSFER FEE: I may be charged a transaction fee on each balance transfer I initiate, equal to 2% of the
transfer amount, with a minimum of $5.00 per transfer.
CREDIT LIMIT: You will establish a Credit Limit for me. I
agree not to let the unpaid balance exceed this Credit Limit. I
agree to advise you of any change in my financial condition
which may affect my credit worthiness. I agree that I shall
update the credit information that I have provided you, from
time to time, on your demand. I may request an increase in
my Credit Limit, but Credit Limit increases must be approved
by you.
PURCHASES AND ADVANCES: I may make Purchases
and request Cash Advances in accordance with then current
loan policies up to my Credit Limit but not exceeding the
security CAP. I understand that all purchases and other
transactions requested by me are subject to your approval.
USING THE CARD: To make a Purchase or obtain a Cash
Advance, there are two alternative procedures to be
followed. One is for me to present the card or card number
to a participating Visa plan merchant, to you, or to another
financial institution, and sign or authorize a sales or cash
advance draft. The other is to complete the transaction by
using my Personal Identification Number (PIN) in conjunction
with the card in an Automated Teller Machine or other type of
electronic terminal that provides access to the Visa systems.
ILLEGAL TRANSACTIONS: I must not use my Card for any
unlawful purpose. I agree that I will not use your Card or
account for any transaction that is illegal under any
applicable law.
ELECTRONIC FUND TRANSFER: In the event use of my
card, or the account number of the card constitutes an
Electronic Fund Transfer, the terms and conditions of my
Electronic Fund Transfer Agreement and Disclosure with you
shall govern such transactions to the extent the Electronic
Fund Transfer Agreement and disclosure expands or
amends this Agreement.
7

